1941 Abbott Road
Anchorage, AK 99507
Phone: (907) 339----9485
Toll Free: (800) 478----2222
www.cu1.org

Credit Cardholder Agreement
and Truth in Lending Disclosure
Interest Rates and Interest Charges
Program
Annual Percentage Rate
(APR) for Purchases

APR for Balance Transfers

APR for Cash Advances

Classic

Secured

11.95%

13.90%

11.95%

13.90%

11.95%

13.90%

Gold

7.00%
This APR will vary with the market
based on the Prime Rate

7.00%
This APR will vary with the market
based on the Prime Rate

7.00%
This APR will vary with the market
based on the Prime Rate

Platinum

NextGen

8.95%

16.50%

8.95%

16.50%

8.95%

16.50%

Penalty APR and When It
Applies

None

How to Avoid Paying
Interest on Purchases

Your due date is at least 21 days after the close of each billing cycle. We will not charge you any interest on purchases if
you pay your entire balance by the due date each month. We will begin charging interest on cash advances and balance
transfers on the transaction date.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the Consumer
Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

Fees
Program

Classic

Annual Fee

None

Secured

Gold

Platinum

NextGen

$15.00

None

None

None

This fee will be assessed each
year on February 18

Transaction Fees
•

Foreign Transaction

Penalty Fees
•
•

Late Payment
Returned Payment

Up to 2% of the transaction amount for any card transaction made in a foreign country or currency.
$30.00
$20.00

How We Will Calculate Your Balance: We use a method called ‘‘average daily balance’’ (including new purchases). See your account
agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
Information is subject to change. For more information. Visit cu1.org, e-mail service@cu1.org, or call (907) 339-9485 or (800) 478-2222
or write Credit Union 1, 1941 Abbott Road, Anchorage, AK 99507.
Parts in boldface meet Truth in Lending Requirements.
Please read the whole Agreement.
To simplify this agreement and disclosure statement for you, the following
definitions will apply throughout. The words you, your, and yours mean the
applicant who applied for a Credit Union 1 credit card loan account and any
cosigner responsible for any amounts borrowed under the loan account. The
words credit card means one or more credit cards which we have issued with
FEDERALLY INSURED BY NCUA
BIN # 523788, 525722, 524932
CC100 Rev 03/16

your credit card account number. The word we, us, our and credit union mean
Credit Union 1. The words convenience checks mean one or more checks
that we may provide to access your Credit Union 1 credit card account.
You have applied for a credit card with the credit union. This agreement
covers our Classic, Share Secured, NextGen, Platinum and Gold card
programs. This agreement explains when a term applies only to one program
or the other. The use of any convenience checks will be subject to the terms of

1

Credit Union 1  Cardholder Agreement and Truth in Lending Disclosure
this agreement as well. If issued, the extension of a credit card to you under
this agreement will be subject to the following terms.
A. USING YOUR CREDIT CARD ACCOUNT
1. You consent to the terms of this agreement by using your card or
convenience checks. You continue to be bound for all transactions
resulting from the use of the account, credit card or convenience checks
until you give us written notice of termination for the account and return
the credit card and convenience checks to us.
1.1. If the credit union approves your application, each applicant will be
issued a credit card and will be able to use the account. You agree
to sign the credit card promptly upon receipt. Each applicant will
also be liable to repay the account under the terms of this
agreement. Cosigners, who do not have access to the account but
are still liable for the loan, acknowledge receipt of a copy of this
agreement and disclosure statement as well as the separate
‘‘Notice to Cosigner’’ form.
1.2. You are also obligated to repay any charges resulting from the use of the
credit card or convenience checks by another person with your
permission whether or not the person stays within the limits of use set by
you.
1.3. Any persons who use the credit card or convenience checks are
also obligated to repay the credit union for all charges incurred
because of their use of the card.
1.4. You remain bound to pay for charges under this agreement even
though another person has been directed to pay the debt by
agreement or court order such as a divorce decree.
2. To make a purchase or get a cash advance, present the credit card or a
convenience check to a participating credit card merchant, to us, or to
another financial institution, and sign the sales or cash advance draft
imprinted with your credit card number. Keep a copy of the draft to verify
your monthly statement. The credit union is not liable for the refusal of
any merchant to accept the credit card or convenience checks.
3. Your credit card may also access designated Automated Teller Machines
(ATMs). The use of your credit card for ATM access is subject to the
additional ATM disclosure terms.
4. Purchases and cash advances (transactions) made in foreign countries
and foreign currencies will be billed to you in U.S. dollars. If you conduct
a transaction with your credit card in a currency other than US Dollars,
including those initiated online, MasterCard® Worldwide will convert the
transaction amount into US Dollars, using either a government-mandated
exchange rate, or a wholesale exchange rate selected by MasterCard.
The exchange rate MasterCard uses will be a rate in effect on the day the
transaction is settled or processed, which may differ from the rate in
effect on the date of purchase or the date the transaction was posted to
your account. If you later receive a refund for a transaction, the amount
of the refund will be converted at the exchange rate in effect when the
refund is processed, which may be different from the exchange rate for
the original transaction. In addition, you will be charged an International
Transaction Fee of up to2% of the transaction amount (the amount the
ATM network or MasterCard charges us) for any card transaction made in
a foreign country or currency. In addition, a 2% International Service
Assessment is added to all transactions made in foreign countries
or currencies and for international single currency transactions
processed in U.S. dollars.
5. Only you can write convenience checks. You may not write convenience
checks to pay any amount you owe to Credit Union 1. We need not pay a
convenience check if: (a) paying the check would cause your balance to
exceed your credit limit; (b) you are in default or your right to use your
account is canceled or suspended; or (c) the convenience check is signed
by anyone other than you. If we pay a post-dated convenience check
written by you before the date on the check, we will not be liable for the
consequences of such early payment. We operate in an automated
processing environment and cannot physically examine every check we
pay. You must notify us of any unauthorized convenience check that

Federally Insured by NCUA
BIN # 523788, 525722, 524932
CC100 Rev 03/16

6.

7.
8.

9.

B.
1.

2.

3.

4.

5.

C.
1.

appears on your account statement within 60 days after we sent you the
statement on which it first appears or we will not be responsible for it.
If you give your credit card number to make a purchase or obtain a cash
advance without presenting the credit card (such as for a mail order,
Internet or telephone purchase), the legal effect will be the same as if the
credit card itself was used by you.
The credit cards and convenience checks we give you remain our
property. You agree to surrender them at our request.
You cannot use your credit card for transactions at Internet gambling web
sites. You agree not to use your credit card for any illegal transaction,
such as illegal gambling. If you use your card for any purpose prohibited
by or inconsistent with this Agreement (a) you cannot claim the improper
purpose as a defense to your obligation to pay the transaction and (b) we
can close your account for breach of this Agreement.
Overdraft Protection Advances. If you designate your credit card account
as an overdraft protection source in writing, the following applies: You
may request a loan advance on your credit card account by writing a
check/share draft any time there are not sufficient funds in your
check/share draft account. If you request a debit card or OnLine Access
or Bill Payment transaction, you can also request a loan advance by using
those services to make payments out of your credit union checking/share
draft account when there are insufficient funds in that account. Any
overdraft of your checking/share draft account, up to your unused credit
limit on your credit card account, will be added to your loan balance under
this Agreement if and when we pay the check/share draft or other
transaction. We have the right to refuse overdraft loan advances but will
promptly notify you in writing of the reasons for refusal. Overdraft
protection advances will not be made if your credit union membership is
not in good standing or if you do not have available credit. All overdraft
loan advances will be in amounts sufficient to cover the overdrafts and
any applicable fees assessed against your share or checking/share draft
accounts. They will be subject to cash advance fees and overdraft
protection advance fees (if any) and will begin to accrue interest
charges as soon as they post.
CREDIT LIMIT
If your application is accepted, the credit union will establish a credit limit
for you. The amount will be based upon many factors, including your
ability to pay and your credit history.
Your account will be an open end or revolving credit account. This means
that you can borrow the full amount of the credit limit, repay the principal
in full or in part and borrow again up to your maximum, as long as you
continue to be creditworthy.
The credit union has the right to terminate the account without advance
notice to the extent permitted by law. We will notify you in writing of the
reason for any such denial of credit. Among the reasons for refusing to
advance you credit are an adverse change in your credit standing such as
not making current loan payments, a change in your employment status,
your insolvency, your bankruptcy, or your death.
Your credit limit will be reviewed periodically and you may be requested to
provide current information. Your credit limit may be increased or
decreased at that time. You can apply for an increase in your credit limit
at any time. The Credit Union will apply our loan policies and underwriting
standards and consider your credit history and ability to pay in
determining whether to adjust your credit limit.
If you cease to be a member of Credit Union 1 in good standing (including
maintaining $5.00 in you share account) we may suspend your credit card
account.
REPAYMENT TERMS AND FINANCE CHARGE INFORMATION
You promise to pay the Credit Union at the address designated on your
statement in U.S. dollars using payment instruments drawn on U.S.
financial institutions all sums advanced to you under this Agreement plus
Finance Charges and other fees. Finance Charges are money you pay
for money that you borrow. Components of the Finance Charge
include interest calculated by application of a periodic interest

2

Credit Union 1  Cardholder Agreement and Truth in Lending Disclosure
rate to the principal amount you have borrowed plus certain fees
assessed on your account.
1.1. Classic: The fixed ANNUAL PERCENTAGE RATE is 11.95%
and the monthly periodic rate is .996%.
1.2. Share Secured: The fixed ANNUAL PERCENTAGE RATE is
13.90% and the monthly periodic rate is 1.158%.
1.3. Gold: The variable annual percentage rate is determined by
adding a margin of 3.50% to the highest commercial prime
rate correctly published in the Wall Street Journal, Western
Edition, on the last Friday of each month. If, due to a
holiday, the Wall Street Journal is not published on the last
Friday of the month, we will use the prime rate published on
the preceding day. The rate will adjust on the 19th day of
the following month. For example, the rate published on the
last Friday in January will be used to determine the rate that
will apply to your account starting on February 19. The
variable ANNUAL PERCENTAGE RATE in effect within 30
days of our providing this disclosure to you is shown in the
table at the top of this Agreement.
1.4. Platinum: The fixed ANNUAL PERCENTAGE RATE is 8.95%
and the monthly periodic rate is .745%.
1.5. NextGen: The fixed ANNUAL PERCENTAGE RATE is 16.50%
and the monthly periodic rate is 1.375%.
Fixed rate accounts will not be subject to rate changes during
the first year the account is open.
2. Finance Charge Calculation Method: Average Daily Balance
(Including Current Transactions): We figure the interest charge on
your account by applying the monthly periodic rate to the
‘‘average daily balance’’ of your account. To get the ‘‘average daily
balance,’’ we take the beginning balance of your account each
day, add any new purchases/cash advances and fees, and
subtract any payments, credits, and unpaid interest and finance
charges. This gives us the daily balance. Then we add up all the
daily balances for the billing cycle and divide by the total number
of days in the billing cycle. This gives us the ‘‘average daily
balance.
3. Finance Charges on Purchases and Cash Advances:
Purchases - The credit union will charge a Finance Charge on
purchases if you did not pay the total new balance listed on your
last billing statement in full by the payment due date. The
payment due date will be a minimum of 21 days after your billing
statement date
Cash Advances - The credit union will charge a Finance Charge on
cash advances from the day the cash advance is posted to your
account until the day we receive payment in full. Cash Advances
include all convenience check transactions (whether used to
obtain cash or to pay for goods or services), use of the Card to
obtain cash via a signature (over-the-counter) transaction or ATM,
overdraft protection advances, and OnLine Access advances.
4. We may change the Annual Percentage Rate on Gold accounts
without advance notice as stated in C.1.3. Fixed rate accounts
and certain types of fees can change upon legally required
advance notice to you. Interest rate changes and increased fees
triggered by transactions will apply only to borrowing transactions
posted at least 14 days after we send you the notice of the rate
change.
5. Your credit card payments will be applied first to past due and over-limit
balances, then to fees, fees, then to interest, and the remainder, if any,
will reduce your principal balance. Any portion of the payment you make
that exceeds your required minimum payment will, if different interest
rates apply to different portions of your balance, be applied first to pay off
higher rate balances.
6. Each month you must pay at least $15.00 or 2.5% of your
principal balance, whichever is greater, plus any fees charged to
Federally Insured by NCUA
BIN # 523788, 525722, 524932
CC100 Rev 03/16

7.

8.

9.

D.
1.

2.

3.

4.

5.

6.

E.

your account, any past due amounts, and any amount by which
you have exceeded your credit limit. If your balance is less than
$15.00, you must pay it in full. Minimum monthly payments are
rounded up to the nearest whole dollar. If your principal balance
increases and/or the interest rate on a Gold account increases,
your minimum monthly payment will generally increase.
We will send you monthly statements of your credit card account, which
will advise you of the status of your account and any other information
required by law.
If your outstanding balance exceeds your credit limit, you must, upon our
written request, make a sufficient payment to reduce your balance to an
amount within your credit limit.
You may pay your balance, including accrued Finance Charges on
the unpaid balance, in full at any time without prepayment
penalty.
OTHER CHARGES
If we do not receive your payment at the address provided with
your billing statement, in one of our branch offices, or
electronically by its due date, we will assess a $30.00 late charge.
If your due date falls on a weekend or holiday and we receive a
mailed payment on the next business day, we will consider your
payment to have been received on time.
We will assess an annual fee of $15.00 for Share Secured
accounts each year on February 18th. Gold, Classic, Preferred
and Platinum accounts have no annual fee.
We will assess a $20.00 fee for each dishonored check or other payment
instrument. The fee will be added to your account and treated as a purchase for
the purpose of calculating Finance Charges.
To cover our cost, we may assess a $30.00 fee for each credit card you
request on a rush basis. The fee will be added to your account and treated as a
purchase for the purpose of calculating Finance Charges.
We will charge $2.00 per page for each document copy that you request
regarding the account, unless the copy is requested to resolve a billing
error. This fee will be added to your account and will be treated as a
purchase for the purpose of calculating Finance Charges.
We charge $22.00 for each request you make to stop payment on a
convenience check. The fee will be added to your account and will be
treated as a purchase for the purpose of calculating Finance Charges. We
will not implement a stop payment unless you provide the account
number, draft number, and exact amount of the convenience check so
that we can make an effective search. Oral requests must be confirmed in
writing within 14 days or the stop payment will be suspended
automatically. Stop payment requests will be processed promptly, but we
will not be responsible for a convenience check that we pay between the
time the request is taken and the time it is implemented unless our delay
was unreasonable. Written stop payment orders are valid for six months.
To release a stop payment order, complete a stop payment release form.
If we fail to carry out a timely stop pay, we will not be obligated to
reimburse you if the convenience check discharged a valid obligation. If
we do reimburse you, the claim for funds against the payee of the
convenience check will be assigned to us, and you agree to cooperate in
collecting the amount wrongfully paid to the payee of the stopped
convenience check.
CREDIT INSURANCE
If we offer credit insurance on your account, and you choose to
purchase it through the credit union, you authorize us to bill you
its cost each month and you agree to pay for it. The monthly cost
of credit insurance will be treated as a purchase for the purpose
of calculating Finance Charges. Purchase of credit insurance is
optional and will not affect our decision to extend credit to you.
You may cancel credit insurance at any time. A separate
disclosure, provided when you apply for credit insurance, will
disclose the cost of coverage. Costs for credit insurance will be
disclosed on a separate enrollment document you will be required
to sign before coverage takes effect.

3

Credit Union 1  Cardholder Agreement and Truth in Lending Disclosure
F. CREDIT REPORTING
You agree that we can request reports from one or more consumer
reporting agencies (credit bureaus) in connection with your credit
application and any update, renewal or extension of your account. If you
ask us, we will tell you whether any consumer report was requested and,
if so, of the name and address of the consumer reporting agency that
furnished the report. We may exchange credit information about you with
others in connection with your application, your account, and any credit
we extend to you.
G. CHANGES IN TERMS
We may change terms of this Agreement by giving you advance
notice required by law. Changes we can make include changing
fixed interest rates, changing variable rate formulas, changing
variable rate accounts to fixed rate accounts, changing fixed rate
accounts to variable rate accounts, and adjusting, adding or
deleting fees. Changes of this type will generally apply only to
purchases and cash advances you make 14 days after we send
you the change in terms notice, so you can avoid the changes by
not using your account for new transactions. You can reject
changes any changes that would otherwise apply to existing
balances by notifying us to close the account, in which case you
will be permitted to pay off any outstanding amounts under the old
terms of your agreement with us.
H. HONEST DEALING
You agree to promptly notify us of any information that affects your
creditworthiness or ability to pay off the loan, including but not limited to a
change in address or employment. You agree not to make any additional
purchases, or take any additional cash advances if you do not reasonably
believe you can repay them under the terms of this agreement.
I. ADDITIONAL TERMS APPLICABLE TO COSIGNERS
As a cosigner, you understand and agree that you are obligated to repay
any amount borrowed under this agreement up to the credit limit we
establish for the applicant to the same extent as the applicant. We can
proceed against you if the payments are delinquent even before we seek
to recover from the borrower. We will give you notice of any action we
take that could have an adverse affect. Any extension of the payoff or
partial settlement with the borrower will not waive any of our rights
against you as the cosigner. You can stop being obligated for future loan
advances only by writing to us to that effect. But you will still be jointly and
individually liable with the borrower to repay all balances outstanding as of
the time we receive your notice.
J. CONSENT TO RECOVER DELINQUENT PAYMENTS FROM SHARES
In consideration for and as a condition of our issuing a credit card
to you, you agree that if you fail to make your required payments,
we can recover your delinquent payments from any Credit Union 1
shares in which you have an interest, unless prohibited by law or
the share agreement. This consent is not a pledge of any shares
and will not affect your right to withdraw funds prior to your
payment default and our exercise of our rights under this consent.
Our exercise of our rights under this consent will not be an
election of remedies.
K. SHARE SECURED ACCOUNTS
If you have a Share Secured Account, a specified amount in one
or more of your Credit Union 1 share accounts is pledged as
security for repayment of all amounts loaned to you under the
terms of this agreement. The amount pledged and the account
will be shown on the separate security agreement. You cannot
withdraw the funds pledged as long as the pledge is in effect. If
you default in your payments under the terms of this agreement,
the credit union has the right to apply the amount specifically
pledged to pay off this account in full or in part. If you are
inadvertently permitted to withdraw shares pledged as security for
a share-secured credit card, we can require you to pledge
different shares or declare your account to be in default and call
the entire outstanding balance due and payable immediately.
Federally Insured by NCUA
BIN # 523788, 525722, 524932
CC100 Rev 03/16

L. DEFAULT - LIEN - ACCELERATION
1. If you fail to make the minimum monthly payment by the due date,
you authorize us to apply any Credit Union 1 shares in which you have
an interest at any time to pay off, in full or in part, your account. Any
Individual Retirement Accounts (IRAs) or other shares that would lose
special tax treatment if pledged as security for a loan are not subject
to this authorization.
2. If you default on your payments or any other obligation under this agreement,
you fail to remain a member in good standing of Credit Union 1, your
creditworthiness materially declines, you become insolvent, file for bankruptcy
relief, or die, we will, at our option, terminate your account and declare the
entire unpaid balance of the account due and payable immediately without
notice. Even if we accept a late payment or partial payment, we are not
waiving our right to accelerate the payment of the account and declare the
entire unpaid balance due.
M. COLLECTION COSTS
If you default in your payments or other obligations, you agree to pay all
costs we reasonably incur to enforce this Agreement before we take legal
action against you. If we take legal action against you, you agree to pay
our reasonable attorney’s fees and court costs in addition to any other
remedy the court finds proper, whether the action we take is a collection
lawsuit, a proceeding to protect our interest if you become a bankruptcy
debtor, an appeal, an action to collect a judgment, or any other type of
action.
N. TERMINATION
Without prior written notice, we can close the account, reduce the credit limit,
refuse to make further advances, and revoke all credit cards issued on the
account for any breach of this agreement to the extent permitted under law. If
that happens, you agree to surrender all issued credit cards and convenience
checks to the credit union. Closing of your account and termination of this
agreement will not relieve you of the obligation to repay the full account
balance due under this agreement.
O. OTHER RIGHTS
1. Unauthorized Use of Lost or Stolen Cards. You will generally have no
liability for unauthorized use of your credit card under MasterCard’s
Zero Liability Rule. You nevertheless agree to notify us immediately of
the loss or theft of your Card at our telephone number, 800 6826075 or on our website at www.cu1.org. During regular business
hours, you can also call (907) 339-9485 or toll free at 800 478-2222.
If the unauthorized use falls outside MasterCard’s Zero Liability Rule,
such as if you have been grossly negligent in handling your card, your
maximum liability is $50.00. Business or organization accounts in
which ten (10) or more credit cards have been issued to employees
or associates are not subject to the limitations on liability. In all cases
of unauthorized use, you agree to cooperate in our investigation to
the best of your ability.
2. Credits. If a merchant who honors your credit card gives you credit
for returns or adjustments, he/she will do so by sending us a credit
slip, which we will post to your account. If your credits and payments
exceed what you owe us, we will hold and apply this credit balance
against future purchases and cash advances, or refund it on your
written request if it is $1.00 or more.
P. GENERAL TERMS
The terms of this agreement must be read together as part of the whole
agreement. When the singular is used, the plural is implied if there is more
than one signer. If any part of this agreement is found to be invalid the other
parts shall remain in effect. Applicable federal and Alaska laws shall govern
the interpretation of this agreement.
YOUR BILLING RIGHTS: Keep This Notice for Future Use
STATE AND LOCAL LAW: The following summary of your rights under federal
law does not cover rights you may have under State and local law. If, under
State or local law, you have a longer period of time in which to send an inquiry
to the credit union concerning your statement, reliance on such any longer
time period may result in your losing important rights which could be

4

Credit Union 1  Cardholder Agreement and Truth in Lending Disclosure
preserved by acting more promptly under federal law. State or local
provisions, if any, only become operative upon the expiration of the time
period provided by Federal Regulation Z for submitting written notification of
an error.
This notice contains important information about your rights and
responsibilities under the Fair Credit Billing Act.

a. You must have made the purchase in your home state or, if
not within your home state, within 100 miles of your current
mailing address, and;
b. The purchase price must have been more than $50.
These limitations do not apply if we own or operate the merchant, or if
we mailed you the advertisement for the property or services.

NOTIFY US IN CASE OF ERRORS OR QUESTIONS
ABOUT YOUR STATEMENT OR ELECTRONIC TRANSFERS
If you think your statement or other documentation is wrong, or if you
need more information about a transaction on your statement, write
us at the address listed on your statement. Write to us as soon as
possible. We must hear from you no later than 60 days after we sent
you the first statement on which the error or problem appeared. You
can telephone us at (907) 339-9485 or toll free at 800 478-2222
during regular business hours, but doing so will not preserve your
rights. In your letter, give us the following information:
•
Your name and account number.
•
The dollar amount of the suspected error.
•
A description of the error and explanation of why you
believe there is an error.
If you need more information, describe the item about which you aren’t
sure.

USE OF YOUR CREDIT CARD FOR CASH ADVANCES
Daily Limits: You can use your credit card to get cash advances at ATMs
and other locations that honor credit cards for cash advances. You can obtain
up to $10,000 per day or your available credit, whichever is less, subject to
the following additional limits: (a) Classic cardholders can obtain no more than
$5,000 in cash advances per day. (b) You can obtain no more than $2,500 in
‘‘quasi-cash’’ transactions (meaning purchases that can be converted to cash,
such as wire transfers, money orders and casino credits). (c) You can obtain
no more than $5,000 in cash per day. (d) You can conduct no more than 25
cash advance transactions per day, and of those no more than 5 may be
made at ATMs.

YOUR RIGHTS AND OUR RESPONSIBILITIES
AFTER WE RECEIVE YOUR WRITTEN NOTICE OF ERROR
We must acknowledge your letter within 30 days, unless we have
corrected the error by then. Within 90 days, we must either correct
the error or explain why we believe the statement was correct.
If you have authorized us to pay your credit card account
automatically from a Credit Union 1 share account, you can stop
payment on any amount you think is wrong. Your request must reach
us at least three business days before the payment is scheduled to
occur. We can ask you to confirm an oral request in writing within 14
days, and if you do not do so, your stop payment request will lapse.
After we receive your letter, and if you have not yet paid the disputed
amount, we cannot try to collect any amount you question, or report
you as delinquent. We can continue to bill you for the amount you
question, including Finance Charges, and we can apply any unpaid
amount against your credit limit. You do not have to pay a
questioned amount while we are investigating, but you are still
obligated to pay the parts of your statement that are not in question.
If we find that we made a mistake on your statement, you will not
have to pay any Finance Charges related to any questioned amount.
If we did not make a mistake, you may have to pay Finance Charges,
and you will have to make up any missed payments on the questioned
amount. In either case, we will send you a statement of the amount
you owe and the date it is due.
If you fail to pay the amount that we think you owe, we may report you
as delinquent. However, if our explanation does not satisfy you and
you write to us within 10 days telling us that you still refuse to pay, we
must tell anyone to whom we report you that you have a question
about your statement. We must also tell you the name of anyone to
whom we reported you. We must tell anyone to whom we report you
that the matter has been settled between us when it finally is.
If we do not follow these rules, we cannot collect the first $50 of the
questioned amount, even if your statement was correct.
SPECIAL RULES FOR CREDIT CARD PURCHASES AND WITHDRAWALS
If you have a problem with the quality of goods or services that you
purchased with a credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right to not
pay the remaining amount due on the property or services. The two
limitations on this right are:

Federally Insured by NCUA
BIN # 523788, 525722, 524932
CC100 Rev 03/16

Suspicious Transactions: We can identify suspicious or extraordinary transactions and may decline the transaction or block future transactions. Our
processor may attempt to call you or e-mail you if suspicious transactions are
attempted on your account. If you anticipate using your card for large
purchases that are unusual as to type or location for you, you may wish to
notify us in advance so we can avoid declining your transaction.
Use of Your Card at ATMs:
1. In addition to the limits prescribed above, the ATM you are using may limit
your transactions. ATMs are generally available 24 hours a day, 7 days a
week, but may be closed for maintenance.
2. You cannot use your credit card for ATM cash advances without a
confidential personal identification code (PIC). Keep your PIC safe.
Memorize it. Do not write it on your card, disclose it to others, or key it in
where others can see it. PIC-based transactions are generally not subject
to zero-liability rules for unauthorized credit card use.
3. You will generally get a receipt dispensed by the ATM and your periodic
statement will show ATM cash advances.
4. The Credit Union will have liability for failure to complete credit card ATM
transactions only to the extent of your direct losses or damages, limited
to the transaction amount. We will not be liable if (i) you do not have
adequate available credit to obtain the advance; (ii) The ATM system is not
working properly and you are aware of the problem when you start your
transaction; (iii) the ATM does not have sufficient cash to cover the
advance; (iv) your card or PIC have been blocked due to a reported loss
or theft; (v) circumstances beyond our control such as fire, flood or
electrical or communications system failure prevent completion of the
transactions in spite of our reasonable precautions; (vi) your borrowing
privileges have been suspended or terminated for any lawful reason
including reasons stated in this agreement; or (vii) we establish other
lawful exceptions and give you any advance notice required by law. We
will not be liable for punitive damages or for alleged consequential
damages such as lost business opportunities or harm to your credit
standing.
5. We do not guarantee the safety or security of ATM sites and are not liable
for wrongful acts at ATM by any persons who are not our authorized
agents or employees. When using ATMs, be aware of your surroundings,
especially at night. Consider having someone accompany you when you
use an ATM after dark. Put your cash and card away as soon as your
transaction is complete and take your receipt with you. Do not use an
ATM if you observe suspicious activity in the surrounding area. Report all
criminal activity to law enforcement officials and the credit union.

If you have any questions regarding this disclosure,
please call (907) 339-9485 or (800) 478-2222.

5

